)

N.o,_.

IN THE
SUPREME COURT OF THE UNITED STATES

ANDRE M. ADAMS

— PETITIONER

(Your Name)
VS.

SUPERINTENDENT SCI-HUNTINGDON,
COMMONWEALTH OF PA.

— RESPONDENT(S)

PROOF OF SERVICE
, do swearor declare that on this date,
, 20_2JL, as required by Supreme Court Rule 29 I have
—July—2 8 th
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

ANDRE M. ADAMS

The names and addresses of those served are as follows:
OFFICE OF THE ATTORNEY GENERAL OF PENNSYLVANIA

STRAWBERRY SQUARE - 16TH FLOOR
HARRISBURG, PA.

17120

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

JULY 28,

MAILING ADDRESS:
Andre M. Asams #KY-4693
1100 PIKE STREET
Huntingdon, Pa. 16654-1112

20-2.1.

RECEIVED
JUL 2 7 2021
^eiceofthe

(Signature)
ANDRE M. ADAMS #KY-4693

